HHS/OIG-Audit--"Examination of the Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled (Medicare) Part A,"(A-04-00-01206)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Examination of the Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled (Medicare)
Part A," (A-04-00-01206)
September 6, 2000
Complete
Text of Report is available in PDF format (930 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether (1) Blue Cross and Blue Shield of North Carolina (BCBSNC) had established
effective systems on internal control, accounting and reporting for administrative costs and (2) the Final Administrative
Cost Proposals (FACP) presented fairly, in all material respects, the costs of program administration for the Part A program
in accordance with Part 31 of the Federal Acquisition Regulations as interpreted and amended by Appendix B of BCBSNC's
agreement with the Health Care Financing Administration (HCFA).
We determined that BCBSNC had generally established adequate systems for internal control, accounting and reporting for
administrative costs. Further, the administrative costs for the period October 1, 1995 through September 30, 1998 were
generally in accordance with Part 31 of the Federal Acquisition Regulations as interpreted and amended by Appendix B of
BCBSNC's agreement with HCFA. However, we identified $21,302 in costs claimed on the FACPs for which we recommend disallowance
for the period October 1, 1995 through September 30, 1997. Unallowable late payment penalties of $128 to the Internal Revenue
Service were claimed on the 1996 Fiscal Year FACP and executive compensation costs of $21,174 were claimed on the 1997
Fiscal Year FACP in excess of the maximum amounts allowed by Public Law 105-85.